 

IN THE
Supreme Court of the Anited States

JON BUTCHER,
Petitioner,
v.
CADY VISHNIAC,
Respondent.
CERTIFICATE OF SERVICE

The undersigned hereby certifies that on May 28,
2020 one copy of the enclosed Petition for a Writ of
Certiorari, the appendix thereto, and the Certificate of
Compliance were duly served via first-class mail, postage
prepaid, to the parties as specified below:

David C. Kravitz Maura Healey

State Solicitor’s Office Attorney General's Office
One Ashburton Place One Ashburton Place
Boston, MA 02108 Boston, MA 02108

Tel. (617) 727-2200
David.kravitz@mass.gov

The undersigned further certifies that all parties
required to be served have been duly served.
Respectfully submitted,
JON BUTCHER
By his attorney,

7m

E. Peter Mullane, Esq.

Sup. Ct. Bar No. 312975
MULLANE, MICHEL & McINNES
6 Bennett Street

Cambridge, MA 02138

Tel.: (617) 661-9000
peter@3mlaw.com

Counsel for Petitioner
